NO. _______________

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

MICHAEL JAMES BARNES
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent

On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 18-60497

CERTIFICATE OF SERVICE
I, Michael L. Scott, appointed under the Criminal Justice Act, certify that
today, August 17, 2020, pursuant to Rule 29.5 of the Supreme Court Rules, a copy
of the Petition for Writ of Certiorari and the Motion to Proceed In Forma Pauperis
was served on Counsel for the United States by Federal Express, No.
771275238921, addressed to:
The Honorable Noel Francisco
Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
16

